<html>
<title> - NOMINATION OF ALTHEA H. COETZEE, OF VIRGINIA, TO BE DEPUTY ADMINISTRATOR OF THE SMALL BUSINESS ADMINISTRATION</title>
<body><pre>[Senate Hearing 115-83]
[From the U.S. Government Publishing Office]





                                                         S. Hrg. 115-83

                    NOMINATION OF ALTHEA H. COETZEE,
                OF VIRGINIA, TO BE DEPUTY ADMINISTRATOR
                  OF THE SMALL BUSINESS ADMINISTRATION

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON SMALL BUSINESS
                          AND ENTREPRENEURSHIP
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 11, 2017

                               __________

    Printed for the Committee on Small Business and Entrepreneurship





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]







         Available via the World Wide Web: http://www.fdsys.gov
         
         
         
         
         
         
         
                                    ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

26-346 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
          
         
         
         
         
         
         
         
         
         
         
         
         
         
            COMMITTEE ON SMALL BUSINESS AND ENTREPRENEURSHIP

                     ONE HUNDRED FIFTEENTH CONGRESS

                              ----------                              
                    JAMES E. RISCH, Idaho, Chairman
             JEANNE SHAHEEN, New Hampshire, Ranking Member
MARCO RUBIO, Florida                 MARIA CANTWELL, Washington
RAND PAUL, Kentucky                  BENJAMIN L. CARDIN, Maryland
TIM SCOTT, South Carolina            HEIDI HEITKAMP, North Dakota
JONI ERNST, Iowa                     EDWARD J. MARKEY, Massachusetts
JAMES M. INHOFE, Oklahoma            CORY A. BOOKER, New Jersey
TODD YOUNG, Indiana                  CHRISTOPHER A. COONS, Delaware
MICHAEL B. ENZI, Wyoming             MAZIE K. HIRONO, Hawaii
MIKE ROUNDS, South Dakota            TAMMY DUCKWORTH, Illinois
JOHN KENNEDY, Louisiana
          Skiffington E. Holderness, Republican Staff Director
                 Sean Moore, Democratic Staff Director
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                            C O N T E N T S

                              ----------                              

                           Opening Statements

                                                                   Page

Risch, Hon. James E., Chairman, and a U.S. Senator from Idaho....     1
Shaheen, Hon. Jeanne, a U.S. Senator from New Hampshire..........     2

                               Witnesses

Coetzee, Althea H., Rear Admiral of Virginia.....................     3

                          Alphabetical Listing

Coetzee, Althea H.
    Testimony....................................................     3
    Prepared statement...........................................     6
    Responses to questions submitted by Ranking Member Shaheen, 
      Senators Scott, Markey, Booker, Hirono, and Duckworth......    18
Risch, Hon. James E.
    Opening statement............................................     1
Shaheen, Hon. Jeanne
    Opening statement............................................     2

 
                    NOMINATION OF ALTHEA H. COETZEE,
                       OF VIRGINIA, TO BE DEPUTY
                  ADMINISTRATOR OF THE SMALL BUSINESS
                             ADMINISTRATION

                              ----------                              


                         THURSDAY, MAY 11, 2017

                      United States Senate,
                        Committee on Small Business
                                      and Entrepreneurship,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:30 a.m., in 
Room 428A, Russell Senate Office Building, Hon. James Risch, 
Chairman of the Committee, presiding.
    Present: Senators Risch, Ernst, Inhofe, Shaheen, Cantwell, 
Heitkamp, and Booker.

OPENING STATEMENT OF HON. JAMES E. RISCH, CHAIRMAN, AND A U.S. 
                       SENATOR FROM IDAHO

    Chairman Risch. The Committee will come to order, and thank 
you all for coming today. There is lots and lots of stuff going 
on on the Hill today, so we appreciate all those who attended.
    Admiral, thank you so much for coming today, and submitting 
yourself to what is going to be a rigorous process, I think you 
will find, here on the Committee.
    But, in any event, the purpose of the hearing this morning 
is to have a hearing on the appointment by President Trump of 
the Deputy Administrator to the Small Business Administration, 
and Admiral Coetzee comes to us with that appointment from 
President Trump. She is nominated to be the next Deputy 
Administrator at the Small Business Administration.
    Throughout the confirmation process, Real Admiral Coetzee 
has complied with all the requests that have been made of her. 
A careful and thorough review of her background, financial, and 
tax history, and professional activities by the Small Business 
Committee staff has found no evidence that should compromise 
the nominee's confirmation.
    Rear Admiral Coetzee has a distinguished military career 
with several deployments on sea and land, including the global 
war on terrorism. She is currently the Chief of Staff to the 
Under Secretary of Defense Acquisitions, Technology, and 
Logistics at the Department of Defense, undoubtedly an 
interesting assignment for you for some time.
    In her civilian capacity she has worked--has a breadth of 
experience in a number of roles, including working for the City 
of----
    Admiral Coetzee. Temecula.
    Chairman Risch [continuing]. Temecula--just like it is 
written--California. She held various management positions in 
the manufacturing industry and in 2005, she founded a small 
business called PRINT-KWIK, located also in that same city. So 
we are glad to have someone with small business experience. We 
do not always get that and we are very appreciative to have 
that.
    So we will swear in the nominee. If you would rise, please, 
and raise your right hand.
    Do you solemnly swear the testimony you are about to give 
to this Committee will be the truth, the whole truth, and 
nothing but the truth, so help you God?
    Admiral Coetzee. I do.
    Chairman Risch. Thank you very much. You may be seated.
    And are you going to represent the minority here? We can 
probably dispense if----
    Senator Cantwell. Mr. Chairman, I am sure that my colleague 
will be here and want to enter her own statement for the 
record.
    Chairman Risch. Okay.
    Senator Cantwell. But, yes, we are represented here.
    Chairman Risch. You are that, and very well, so thank you 
very much.
    Well, with that, Admiral, We are going to turn it over to 
you to tell us what you want to tell us, and then we will have 
some very deep and probing questions for you, I have no doubt.
    Admiral Coetzee. Thank you, Chairman Risch.
    Chairman Risch. Oops. Wait a second. That is all right. 
Please mark Senator Shaheen tardy.
    [Laughter.]
    You will stay after.
    Senator Shaheen. Story of my life.
    Chairman Risch. Did you want to make an opening statement?
    Senator Shaheen. I would like to make an opening statement.
    Chairman Risch. Okay. Please. Did you want to go ahead?
    Senator Shaheen. Please.
    Mr. Chairman, is it your understanding there is a vote at 
11:00?
    Chairman Risch. There is a vote at 11:00, and I am 
expecting that we are going to be done here at that time, or 
possibly before that, I would think, depending upon----
    Senator Shaheen. Okay.
    Chairman Risch [continuing]. Where you want to go to with 
this.
    Senator Shaheen. Okay. All right. All right.
    Chairman Risch. That is aspirational at this point.
    Senator Shaheen.

OPENING STATEMENT OF HON. JEANNE SHAHEEN, RANKING MEMBER, AND A 
                U.S. SENATOR FROM NEW HAMPSHIRE

    Senator Shaheen. Well, thank you, Mr. Chairman, and thank 
you to Admiral Coetzee. Hopefully I am pronouncing your name 
correctly. It is wonderful to have you here before the 
Committee and I apologize for being late. But I really did want 
to take a minute--and I will submit my full statement for the 
record--to thank you for being willing to take on this 
responsibility.
    And I just want to point out, as I am sure you already 
know, that small businesses are a critical part of this 
country's economy. Two out of every three, or two-thirds of new 
jobs that are created are created from small businesses and 
they get 16 times more patents per employee than large 
businesses. And the SBA and all of its programs are really 
critical to so many small businesses. In my State of New 
Hampshire, where 99 percent of our employers are small 
businesses, that is the case, and there are a number of 
critical programs that the SBA runs that are very important to 
those small businesses.
    So when--during her confirmation hearing, Administrator 
McMahon was very passionate about small business and about what 
the SBA could do to support them, and I know that the Deputy 
Administrator position is key to improving SBA's programs and 
making sure that they work the way that they are supposed to. 
So I am looking forward to hearing your responses to our 
questions, and again, very much appreciate that you are taking 
on a role that is going to be critical in the operations of the 
Small Business Administration. So thank you.
    Thank you, Mr. Chairman.
    Chairman Risch. Thank you much. Admiral, the floor is 
yours.

   TESTIMONY OF REAR ADMIRAL ALTHEA H. COETZEE, OF VIRGINIA, 
     NOMINATED TO BE DEPUTY ADMINISTRATOR, SMALL BUSINESS 
                         ADMINISTRATION

    Admiral Coetzee. Thank you, Chairman Risch, Ranking Member 
Shaheen, members of the Committee. I am deeply honored to be 
here to appear before you and the Committee today.
    I would like to thank President Trump for nominating me to 
the position of Deputy Administrator of the U.S. Small Business 
Administration. I would also like to thank Administrator Linda 
McMahon for her guidance and advice in this process. She is an 
inspirational leader and, if confirmed, I look forward to 
supporting her in achieving her vision to help America's small 
businesses and entrepreneurs achieve their maximum potential. I 
would also like to thank the professional staff of the 
Committee for their time and assistance in the confirmation 
process.
    Behind me today is my mother, Mrs. Althea F. Coetzee; my 
fiance, DeWayne Leslie; and his daughter and son-in-law, Casey 
and Tony Ramos; and several close friends and colleagues who 
have graciously come here to support me today. I know my dad 
would have loved to be here, and I can assure you he is looking 
down right now with a huge, proud smile.
    My dad's love for his country and his pride in the United 
States were reflected in all he did. From the time I can 
remember, he and my mom instilled in me an entrepreneurial 
spirit that I can achieve my dreams, do whatever I set my mind 
to doing, and be whatever I want to be. I am eternally grateful 
for my mother's unwavering support throughout my career, and 
for the support of my fiance and my friends, who constitute my 
extended family represented here today. I would not be here if 
it were not for all of you.
    I am especially honored to be considered for the position 
of Deputy Administrator because of the importance of small 
business to President Trump. Kicking off National Small 
Business Week last Monday, he said, ``Small business owners 
embody the American pioneering spirit and remind us that 
determination can turn aspiration into achievement. This week 
we affirm our commitment to removing government barriers to the 
success of American small businesses.''
    I share our President's commitment to small businesses, as 
well as Administrator McMahon's commitment to ensuring the U.S. 
Small Business Administration successfully advances its 
mission. If confirmed, I look forward to supporting 
Administrator McMahon in her goals of providing the necessary 
tools for small businesses to gain access to capital, for 
entrepreneurs to receive relevant counseling services, and for 
small businesses, especially those owned by women, veterans, 
and minorities, to have opportunities for Federal contracts.
    I am excited to be considered for the Deputy Administrator 
position because my roots take me back to small business 
entrepreneurship. As a pre-teen, I started delivering 
newspapers for a neighbor, and was assigned 10-12 papers to 
deliver each afternoon. By the time I graduated high school, I 
had grown my newspaper enterprise into a total of five routes, 
for both morning and evening editions. I revisited this 
entrepreneurial spirit later in life. I am very proud to have 
started a small printing business with two other business 
partners. Like other entrepreneurs, we started with an idea, 
put together a business plan, and sought the capital to realize 
our goals. I can say that after only three months of operating, 
we were in the black and well on our way. I have since sold my 
share of the business but I am pleased to say it is still going 
strong.
    My experience in leading and managing organizations of all 
sizes in the military, public, and private sectors has uniquely 
qualified me for the position of Deputy Administrator. If 
confirmed, I will retire from the Navy as a two-star rear 
admiral, having achieved the highest rank attainable in my 
career. I will leave my last post as Chief of Staff to the 
Under Secretary of Defense for Acquisition, Technology, and 
Logistics, managing a staff of 1,200 military, civilian, and 
contractor personnel. In my roles with the Office of the Under 
Secretary, I have been responsible for oversight and execution 
of multiple programs and led cross-functional teams that 
support the mission of the Department of Defense. If confirmed, 
I look forward to applying that same oversight and execution to 
the mission of the U.S. Small Business Administration.
    In my most recent assignments, I have directed and managed 
organizations ranging from 50 to over 10,000 personnel 
worldwide, with budgets exceeding $1 billion. These include 
U.S.-based commands as well as humanitarian and combat forces 
deployed worldwide. I have been responsible for developing, 
approving, and managing budgets, personnel, logistics, and 
supply chain operations, and innovative business information 
technology solutions for the Navy, Marine Corps, and Department 
of Defense. During periods of severe budget constraints, I have 
led efforts to recapitalize Enterprise Resourcing Planning 
solutions, and tied these efforts to zero-based reviews of 
staff and operations to devise the most efficient organization 
composition to operate within budget.
    In my civilian career, in addition to owning a small 
business, I managed manufacturing engineering, quality 
engineering, and operations for a Fortune 100 medical device 
manufacturer before returning to government service as a civil 
servant to manage contracting operations for the Marine Corps.
    In my 25-plus years as a contracting professional, I most 
recently managed seven geographically diverse satellite field 
offices in addition to the main operation. On military 
deployments, I was based in Djibouti, Africa, but responsible 
for contracting activities located in Yemen and throughout 
Africa, and I was based in Kabul and responsible for 
contracting activities throughout Afghanistan and as far off as 
Qatar. In my first such experience managing field offices, I 
came to appreciate the importance of ensuring all offices felt 
they were part of the mission, especially when it came to 
decisions that impacted the entire organization. In these 
organizations, as well as in other professional positions, I 
recognized the importance of ``one team, one fight.'' That is, 
no matter what the status of the employee, whether active or 
reserve military, government civilian or political appointee, 
or contractor, each is an integral part of the organization. 
Each plays a vital role and is accountable for achieving the 
mission.
    If confirmed, I look forward to advising Administrator 
McMahon on contracting matters to maximize opportunities for 
small businesses. I also look forward to applying my skills in 
managing geographically diverse organizations to ensure all SBA 
offices understand the mission and are equal partners in 
achieving the Administrator's goals and objectives.
    I am especially thrilled to be considered for the Deputy 
Administrator role because I see this is as an opportunity to 
continue to serve my country in a new capacity, where I can 
apply the skills that I have honed over careers in the 
military, public and private sectors to help the U.S. Small 
Business Administration successfully carry out its mission and 
to help small business owners achieve their dreams.
    Once again, I would like to thank you for the opportunity 
to share my service, experiences, and enthusiasm for the 
position of Deputy Administrator of the U.S. Small Business 
Administration.
    Thank you for your leadership, Chairman Risch and Ranking 
Member Shaheen. If confirmed, I look forward to working with 
you. I am very happy to take your questions now. Thank you very 
much.
    [The prepared statement of Admiral Coetzee follows:]
    
   
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
     
    Chairman Risch. Thank you, Admiral. You certainly come to 
us well qualified. You know, the first business I ever started 
was also a paper route, and it got big and unwieldy but I never 
thought about subcontracting that. That was a great idea but it 
is too late now to go back.
    [Laughter.]
    In any event, thank you so much for agreeing to take this 
on. Senator Shaheen.
    Senator Shaheen. Well, thank you very much, Mr. Chairman. 
We have [off microphone]. As I said, 99 percent of our 
businesses are small businesses in New Hampshire, and I really 
learned to appreciate the SBA when I first got elected to the 
State Senate in the early 1990s, because five of our seven 
largest banks were closed by the FDIC, and I very clearly 
remember those pictures of the doors being padlocked of those 
banks. And the only thing that kept New Hampshire's economy 
afloat during that period was the SBA, and the lending through 
the SBA.
    So I know how critical it is, and it continues to play that 
kind of a role. Right now we have two openings in our SBA in 
New Hampshire, and I would hope that you would pledge to ensure 
that you will work with us as closely as possible to fill those 
positions so we can have people back out working with our small 
businesses.
    Admiral Coetzee. Senator Shaheen, I very much appreciate 
the need to have resources to carry out the mission of the 
Small Business Administration and our field offices are the 
outreach that we have that reach those local communities. So I 
will commit to you that if I am confirmed I will work very 
diligently to make sure that those positions are filled by 
qualified representatives.
    Senator Shaheen. Thank you very much. A couple of weeks ago 
we had a hearing, talking about the challenges that are faced 
by rural businesses in this committee, and one of the companies 
that I talked about is a small precision manufacturing business 
in Claremont, New Hampshire, that had just gotten HUBZone 
status. And I had a chance to visit them, and they were so 
excited because of the 200 or so businesses in the United 
States that have similar certifications as Costa, that does, as 
I said, precision manufacturing, there are only 6 of them that 
have HUBZone status. So they were looking at that as an 
opportunity to really compete for government contracts in a way 
that they would not have been able to do without having that 
status.
    One of the challenges, however, is as they were waiting for 
the status for that certification, they had to wait months, 
literally, because of shortages at SBA, because of the 
organization. It is not clear to me why it has taken--why it 
took them so long to get that certification done. And I think 
that is one problem that we need to address within SBA. The 
other is that right now there are only--well, HUBZones are 
supposed to get about 3 percent of government contracts. We are 
only halfway there, in terms of fulfilling that requirement.
    So I wonder, first, if you could talk about strategies that 
you might see, especially given your work at the Department of 
Defense, to encourage government to look at those HUBZone 
companies, and also the commitment that you will make to take a 
look at this program and see how we can make sure that it is 
functioning the way it should.
    Admiral Coetzee. Thank you for that question, Ranking 
Member Shaheen. If confirmed, I will look--use my background in 
the DoD and contracting and my associative work with the Small 
Business Administration as a contracting professional to make 
sure that those businesses who are covered under the law have 
the opportunities that they are entitled to and we maximize 
those opportunities. Being a nominee, I am not familiar with 
exactly what the Small Business Administration has done in 
these areas, but I know that this is a priority for 
Administrator McMahon, and if confirmed I look forward to 
working with her as well as the Committee on seeing what we can 
do to reach these businesses and make sure that they are 
afforded the maximum opportunities for Federal contracts.
    Senator Shaheen. Well, thank you. I think we need to make 
sure that our small businesses are able to take advantage of 
the programs that exist when they are there, and make sure that 
all of government is complying with those programs.
    One of the other challenges that I know faces every Federal 
agency is keeping up with the technology and making regulations 
simple enough so that people can understand them. I know that 
this has been a challenge within SBA to have the technology to 
allow people to engage with SBA online. So, again, I would ask 
if you would take a look--commit to take a look at this aspect 
of the way SBA operates, and let us know what we need to do to 
support SBA to make sure that you can better serve your 
customers.
    Admiral Coetzee. That is a high priority, I know, for the 
Administrator, and if confirmed it is a high priority for 
myself. I have had feedback from small businesses, even in my 
current role, as the frustration with accessing the systems and 
the complexities of some of the regulations that govern them. 
So I do look forward to working with the Administrator and with 
the Committee to see how we can best streamline, simplify, and 
make accessible the programs that are available through the 
Small Business Administration.
    Senator Shaheen. Thank you very much. Thank you, Mr. 
Chairman.
    Chairman Risch. Thank you.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman. It is not very 
often that we get someone that is going through confirmation 
that is nearly the perfect one, and I think you come very 
close. It was such a relief to me. In my State of Oklahoma we 
have five major military establishments, and we have the--it 
may be the largest percentage of retired veterans in my State 
of Oklahoma. It is a great place to live and a lot of people, 
when they are stationed there, they just do not leave.
    So we have a lot of those guys there, and I--the first 
thing I noticed when your name floated across was you have this 
military background, which was a sigh of relief for me. And the 
only thing I want to talk about, just very briefly, as we do 
have a vote coming up, is the fact that we do have a--you have 
a special role that you can play with veterans' organizations. 
You have a--you have worked closely with them in the past, and 
we have a program where you have the collaboration between the 
SBA and the veterans, and how you have seen the landscape for 
veteran-owned businesses change over the years.
    Can you just address what your thoughts are on how you can 
use your background to help our situation with the veterans, 
getting them employed and active in small businesses?
    Admiral Coetzee. Thank you for that question, Senator. I am 
obviously very interested in making sure that our veterans, 
both returning warriors, both retiring, those who have served 
in any capacity, whether active or reserve, have opportunities 
as veterans, and I see opportunities for a partnership with the 
Veterans Administration and other organizations to help the 
veterans find more opportunities for starting their own 
business and also employing, or employment.
    The Small Business Administration is focused on veterans, 
women-owned, minority-owned, and ANCs, 8(a)s, HUBZones, and I 
see the veterans as one of the keys to the future of our 
economy. There is a lot of talent out there that is waiting to 
be tapped into, and if confirmed, I will do what I can to work 
towards making those programs available to the veterans through 
our field offices, through the Small Business Administration 
centralized, and whatever we can do to provide those 
opportunities for veterans.
    Senator Inhofe. Yeah. You know, I appreciate the fact that 
you used the distinction between the veterans and the returning 
warriors, and we have both, and they both have a very similar 
problem. There is a program within the SBA that specifically 
addresses veterans. Have you been studying this stuff long 
enough, even though you have not been involved with the SBA for 
a long period of time, to be familiar with those programs?
    Admiral Coetzee. I am not familiar with the specifics of 
the programs but I do have friends and colleagues who are 
veterans who have started their own businesses and they have 
shared with me some of their experiences and frustrations.
    Senator Inhofe. Well----
    Admiral Coetzee. So there are areas where I know we can 
improve and reach a bigger population of veterans, particularly 
those who are frustrated and are apprehensive of starting a 
business because of what they perceive to be some of the 
barriers.
    Senator Inhofe. Well, we look forward to your leadership in 
that, so we are going to enjoy it.
    Thank you, Mr. Chairman.
    Chairman Risch. Thank you, Senator.
    Senator Booker.
    Senator Booker. Thank you, and I want to thank Chairman 
Inhofe because veterans actually have better rates at starting 
businesses, show more success when they do, and I am grateful 
for the emphasis of this committee on that.
    I am concerned a lot about the fact that small businesses 
are often disadvantaged when it comes to the government 
procurement process. And we have tremendous opportunity but the 
way that we do procurement rules, and the DoD has been really 
having a difficult time meeting the threshold that Congress set 
for it, about 23 percent with small businesses. Especially when 
it comes to the new sort of tech world that we live in, often 
small, capable, better able tech firms do not even try to go 
through the government contracting process.
    So I do not know if you have any ideas or thoughts about 
this, especially with your background working in the military.
    Admiral Coetzee. Thank you for that question, Senator 
Booker. I do have some feelings about that, and if confirmed I 
will work very diligently to, again, simplify some of the IT 
programs that we have that make the Small Business 
Administration seem difficult and inaccessible, and also to 
leverage the field offices that we have and provide education 
and training to those offices on how they can better reach 
those disadvantaged businesses. Those disadvantaged businesses 
are critical to the economic base, particularly in areas where 
they exist and there are not other opportunities.
    In Federal contracts, I do not know specifically how those 
metrics are calculated with the Small Business Administration, 
but one of the areas that I would like to look at is what are 
we capturing. Are those meaningful metrics, and are they really 
telling the story that we are trying to convey, and are they 
reaching those populations that we are trying to reach?
    Senator Booker. Thank you very much.
    Do you believe the Federal Government should be doing more 
to help women and minorities start businesses and get engaged?
    Admiral Coetzee. Before I can make a concerted opinion on 
that I would like to see what the Small Business Administration 
is doing and what Federal laws are we implementing, or, 
actually, following through with to make sure that we are 
meeting the intent of the law, giving the opportunities. And 
then once I have assessed that with the Administrator and 
Committee, then we can determine if maybe there is more we can 
do, or maybe we are just not doing enough with what we have.
    Senator Booker. Okay. And so there are efforts going on 
that I have been encouraging since I have gotten here. The 
Obama Administration made some pretty good strides in extending 
more loans to entrepreneurs of color and women businesses. We, 
as a country, desperately need more women to be engaged in 
that, and I am hoping it is something that you will focus on 
and that my office can partner with you on as well.
    We cannot compete globally, frankly, or we cannot even 
create the kind of jobs we need if we are leaving large 
portions of our populations on the sidelines when it comes to 
being entrepreneurs. And it is just an area of emphasis for me, 
and I really hope that you and I can find a way to work 
together on that.
    Admiral Coetzee. If confirmed, I look forward to working 
with you and doing that.
    Senator Booker. Thank you very much. And any bias that you 
have towards the State of New Jersey would be appreciated as 
well.
    [Laughter.]
    You know, an SBA study found that--and we talk about this a 
lot in this committee--that two in every three net new jobs 
that are being created, as you probably know, are being created 
by small businesses. And so, you know, I just think that our--
us, as a society, need to be focused a lot more on sort of 
bringing more--helping to encourage more businesses to come to 
fruition. And there are programs, like the Emerging Leaders 
program, the ScaleUp America, that assist business owners. 
These programs help to expand operations and create more local 
jobs. It is just so critical.
    And so I am just wondering, starting a business is one 
thing, but helping small businesses expand is another thing. 
And do you have any thoughts about how do you help business 
owners expand their business operations, and can you make some 
commitment to us that you are going to be interested in 
supporting the programs that already exist, that help for those 
expansions--that expansion?
    Admiral Coetzee. Yes, Senator. If confirmed, I will work 
towards helping small businesses expand, because the whole goal 
of small businesses starting is to grow those businesses, and 
to maybe graduate from those programs into medium-small 
businesses, medium-large businesses, and then large businesses. 
So the success of a small business as a business entity is--can 
be, dependent on the services and the support that the Small 
Business Administration is able to afford them. So I do look 
forward to working with Administrator McMahon as well as the 
Committee on trying to achieve those objectives.
    Senator Booker. And the last thing, I saw her yesterday so 
it is fresh in my mind, Dina Powell, who is--interestingly, she 
helped lead Goldman Sachs' 10,000 Women businesses. 
Extraordinary program that had a lot of private sector success, 
a wealth of knowledge. It is a shame that she is doing 
international foreign policy work but I am hoping it is 
somebody that you might talk to about how to really be 
successful, and also the potential for creating public-private 
partnerships, which we do not talk about enough, I think, in 
terms of helping small businesses thrive and succeed.
    But thank you very much, and I appreciate your service to 
our country. It is an extraordinary thing that people would 
volunteer for a post like this. It ain't the pay, so it is a 
tribute to your commitment and your patriotism and I appreciate 
that.
    Admiral Coetzee. Thank you, Senator Booker.
    Chairman Risch. Thank you, Senator Booker. Senator Ernst, I 
do not think a lieutenant colonel outranks an admiral, but in 
any event----
    Senator Ernst. Absolutely not.
    [Laughter.]
    Thank you, and, admiral, thank you so much for being here, 
and congratulations on your nomination. We certainly appreciate 
your service, just as Senator Booker said, so thank you.
    One of the issues I am working on, and I am going to tag 
onto what Senator Booker was actually talking about, is an 
issue of addressing small businesses and their access to 
Federal contracting opportunities. And last week Senator 
Gillibrand and I introduced legislation that directs the SBA to 
conduct a comprehensive study on women-owned small business 
participation in multiple award contracts from the Federal 
Government. And this study would address concerns that the 
women-owned small businesses are under-represented in those 
MACs, and would also examine the participation of all other 
socioeconomic categories of small businesses, including 
service-connected disabled veteran-owned small businesses and 
those that are participating in Historically Underutilized 
Business Zones, or HUBZone programs.
    So considering you have extensive knowledge in Federal 
contracting, do you have any thoughts on this issue, or what 
additional things we can do beyond the study to help with 
women-owned small businesses?
    Admiral Coetzee. Thank you for that question, Senator. Yes, 
I believe that we--as I mentioned earlier, we need to look at 
the metrics that we are capturing and how are we measuring the 
success of these programs, and once we understand are those the 
right metrics then how are we reaching out to these entities? 
What are we doing to make these opportunities available? Are 
there more set-aside opportunities that we should be taking 
advantage of that maybe we are not? Are the multiple awards the 
right vehicle for small businesses to compete with large 
businesses or should we have other venues where it is purely 
small business multi-awards?
    So those are some of the initial thoughts that I have, but 
if confirmed I will put a lot of effort into this area.
    Senator Ernst. Well, I appreciate that very much, and I 
think many of us would agree that our small businesses, what 
they really need most is the favorable regulatory environment. 
And for this reason I have spent the last year or so working on 
legislation that gives small businesses a stronger voice in the 
regulatory process, and that act is called the Prove It Act. 
And the bill that I have proposed seeks to strengthen the voice 
of small business owners and improve the quality of agency 
certifications and analysis.
    And in the event that a number of Federal agencies have a 
difference of opinion between that agency and the Office of 
Advocacy on the economic impact of a rule--and we saw this 
instance with Waters of the United States, the expanded 
definition, and we have seen other rules like that, where there 
was a difference of opinion between the different agencies--the 
Prove It Act would give the Office of Advocacy the opportunity 
to request that an agency take a second look at its analysis. 
We do not do that right now. I feel it is a good government 
bill that would encourage Federal agencies to more carefully 
consider the impacts of their rules on small businesses.
    And can I get a commitment from you to work with me on this 
legislation and help implement it? I have discussed this act 
with Administrator McMahon on multiple occasions and she has 
agreed that this would be a good bill to work on together. Can 
I also get your commitment?
    Admiral Coetzee. Thank you for the question, Senator. If 
Administrator McMahon is committed to supporting this, if 
confirmed, I am committed to supporting Administrator McMahon 
and working with you on this bill.
    Senator Ernst. Thank you.
    Admiral Coetzee. I think it is important.
    Senator Ernst. I appreciate it. We all want to work 
together and make sure government is doing what it should do, 
but certainly getting out of the way when it needs to as well. 
So thank you very much, admiral. Thank you, Mr. Chair.
    Chairman Risch. Thank you, Senator.
    That concludes our hearing. Admiral, thank you again so 
much for agreeing to take this on.
    For the record, I want to state that the deadline for 
questions for the record is close of business tomorrow, Friday 
the 12th. The record will also be kept open for two weeks to 
edit statements, submit letters, and any other relevant 
materials. However, having said that, Senator Shaheen and I are 
both of the frame of mind that we ought to move this rapidly. 
We are going to do our best to have the Committee vote on this 
next week and get this moving. I think it is in the best 
interest of everyone that we get you to where you can do a lot 
more good for America.
    Again, thank you so much, and with that the hearing is 
adjourned.
    [Whereupon, at 11:08 a.m., the Committee was adjourned.]

                      APPENDIX MATERIAL SUBMITTED



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                                  [all]
</pre></body></html>
